No. 19-123

In the Supreme Court of the United States
SHARONELL FULTON, ET AL.
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.
ON WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT

BRIEF OF AMICUS CURIAE
COMMONWEALTH OF PENNSYLVANIA
IN SUPPORT OF RESPONDENTS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the brief of amicus curiae
Commonwealth of Pennsylvania contains 2,100 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 20, 2020.
/s/ Michael J. Fischer
Michael J. Fischer, Counsel of Record
Chief Deputy Attorney General
Office of Attorney General
1600 Arch Street, Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov
Counsel for Amicus Curiae

